i'

CERTIFICATE OF SERVICE

I, Rogoberto Melero Aguirre herby certify that i have served a true and correct copy of "PETITION FOR A WRIT OF
PROHIBITION," to the following parties to the above entitled action, by placing postage, and deposited same with prison
officials here at he the federal Correctional Institution, La Tuna, P.O. Box 3000, Anthony, NM/TX 88921 on September 5, 2021,
pursuant to Title 28 UNITED STATES CODE, SECTION 1746.1 declare under penalty of perjury that the above is true.
U.S. SOLICITOR GENERAL
950 PENNSYLVANIA AVENUE, N.W.
WASHINGTON. D.C. 20530

CLERK OF THE SUPREME COURT
1ST FIRST STREET, N.E.
WASHINGTON D.C. 20543

U.S. COURT OF APPEALS
FOR THE FIFTH CIRCUIT
600 S. MAESTRI PLACE
NEW ORLEANS, LA 70130
Respectfully Submitted

Date: September 5, 2021

RigobeiioMelero Aguirre
Fed. Reg. #48168-280
Federal Correctional
Institution - La Tuna
P.O. Box 3000
Anthony, NM/TX 88021

— IV —T

;;s

